Audit Report




OIG-13-045
SAFETY AND SOUNDNESS: Failed Bank Review of First Federal
Bank, Lexington, Kentucky


July 31, 2013




Office of
Inspector General
DEPARTMENT OF THE TREASURY
                                     DEPARTMENT OF THE TREASURY
                                          W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                              July 31, 2013


            OIG-13-045

            MEMORANDUM FOR THOMAS J. CURRY
                           COMPTROLLER OF THE CURRENCY

            FROM:                 Susan Barron /s/
                                  Director, Banking Audits

            SUBJECT:              Failed Bank Review of First Federal Bank


            This memorandum presents the results of our review of the failure of First Federal
            Bank (First Federal), located in Lexington, Kentucky, and the supervision of the
            bank by the Office of the Comptroller of the Currency (OCC) and the former Office
            of Thrift Supervision (OTS). OTS regulated First Federal until July 21, 2011, when
            OCC assumed regulatory responsibility for federal savings associations pursuant to
            Public Law 111-203.

            First Federal was chartered in 1935 in Lexington, Kentucky, as First Federal
            Savings and Loan Association of Lexington. First Federal changed to its present
            name in 2000 and has a main office and three branches in Lexington, Kentucky
            and one branch in Georgetown, Kentucky. OCC closed First Federal and appointed
            the Federal Deposit Insurance Corporation (FDIC) as receiver on April 19, 2013. As
            of December 31, 2012, First Federal had approximately $100.1 million in total
            assets. As of May 31, 2013, FDIC estimated the loss to the Deposit Insurance
            Fund to be $9.7 million.

            Because the loss to the Deposit Insurance Fund was less than $150 million, as set
            forth by section 38(k) of the Federal Deposit Insurance Act, we conducted a review
            of the failure of First Federal that was limited to (1) ascertaining the grounds
            identified by OCC for appointing the FDIC as receiver and (2) determining whether
            any unusual circumstances exist that might warrant a more in-depth review of the
            loss. In performing our review, we (1) examined documentation related to the
            appointment of FDIC as receiver, (2) reviewed OCC and OTS reports of
            examination for the 5-year period before the bank’s failure, and (3) interviewed
            OCC personnel.

            We performed our fieldwork during May and June 2013. We conducted this
            performance audit in accordance with generally accepted government auditing
            standards. Those standards require that we plan and perform the audit to obtain
OIG-13-045
Page 2

sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Causes of First Federal Bank’s Failure
OCC appointed FDIC as receiver based on the following grounds: (1) the bank
experienced substantial dissipation of assets or earnings due to unsafe or unsound
practices; (2) the bank was in an unsafe or unsound condition to transact business;
(3) the bank incurred or was likely to incur losses that would deplete all or
substantially all of its capital, and there was no reasonable prospect for it to become
adequately capitalized without federal assistance; (4) the bank’s unsafe or unsound
practices or conditions were likely to cause substantial dissipation of assets or
earnings; (5) the bank’s unsafe or unsound practices or conditions were likely to
weaken the bank’s condition; (6) the bank was undercapitalized, and had no
reasonable prospect of becoming adequately capitalized; and (7) the bank was
critically undercapitalized.

The primary causes of First Federal’s failure were its (1) aggressive growth that
focused on commercial real estate lending and commercial nonmortgage loans and
(2) ineffective board and management. Despite repeated criticism from the former
OTS, followed by OCC, the board and management failed to implement appropriate
risk management and credit administration practices, resulting in increased levels of
problem assets that adversely affected earnings and substantially depleted capital.
While this occurred, First Federal purchased a mortgage banking business amid a
deteriorating mortgage market as well as two new branch sites that ultimately
increased non-interest expenses and led to an increase in the bank’s already rapid
depletion of capital and eventually to its failure.

Our review of First Federal revealed certain matters that we referred to the
Treasury Inspector General’s Office of Investigation.

Conclusion
Based on our review of the causes of First Federal’s failure and the grounds
identified by OCC for appointing FDIC as receiver, we determined that there were
no unusual circumstances surrounding the bank’s failure that would necessitate an
in-depth review. We provided a draft of this memorandum to OCC management for
comment. In its response, OCC stated that it agreed with our conclusion as to the
causes of the failure of First Federal and that it had no concerns with our
determination that an in-depth review of the bank’s failure is not warranted. The
OIG-13-045
Page 3

response is provided as Attachment 1. A list of the recipients of this memorandum
is provided as Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-5776 or Dana
Duvall, Audit Manager, at (202) 927-9648.

Attachments
         OIG-13-045

       Attachment 1
Management Response
                                                       OIG-13-045

                                                     Attachment 2
                                                       Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Performance Management
   Office of the Deputy Chief Financial Officer, Risk and Control
      Group

Office of the Comptroller of the Currency

   Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
